No.

IN THE
SUPREME COURT OF THE UNITED STATES
CARINA CONERLY And M.T. - PETITIONERS
V.
SUPERIOR COURT OF'SACRAMENTO, UDUAK INYANG ODUOK,
JOHN PATRICK WINN, OLUBUNMIOLAIDE AWONIYI,
AND SHARIF ROLDAN TARPIN - RESPONDENTS

ON PETITION FOR A WRIT OF CERTIORARI TO

THE SUPREME COURT OF THE UNITED STATE OF CALIFORNIA

PETITION FOR WRIT OF CERTIORARI

CARINA CONERLY

1501 AMAZON AVENUE

SACRAMENTO, CALIFORNIA 95835-1929
(916) 529-0812 or (916) 704-6755

QUESTION(S) PRESENTED
1. WHETHER, the Ninth Circuit Court of Appeals Abused its discretion, erred
and Deprived Petitioners of To A Fair and Just Trial/RIGHT TO DUE
PROCESS by determining that Petitioners’ Motion to Proceed In Forma Pauperis
is Frivolous concluding, denying, and dismissing Petitioners’ Appeal as being
Frivolous and Moot?
2. WHETHER, the Eastern District Court’s Chief Judge erred and Abused her
Discretion and deprived Petitioners a Fair and Just Trial/ RIGHT TO DUE
PROCESS within the court by fully Adopting and Ordering the Magistrate
Judge’s findings and recommendations on July17,2020; and Entry of Judgment
on July 20, 2020?
3. WHETHER. Respondent, Uduak Inyang Oduok Abused her Discretion and
violated Petitioner’s Right To A Fair and Just Trial/RIGHT TO DUE PROCESS
by failing to RECUSE herself after knowing that she was a Defendant In a
Federal Court Case and Petitioner previously had Filed with the Sacramento
Superior Court a typed request for his Recusal?
4. WHETHER. Respondent, Superior Court Family Law Judge John Patrick Winn
Abused his Discretion and violated Petitioners’ Right To A Fair Trial/RIGHT TO
DUE PROCESS and Just trial by failing to RECUSE himself after knowing that
he was a Defendant In a Federal Court Case that Petitioner/Carina Conerly had
previously Filed in the Sacramento Superior Court a typed request for his Recusal?
1

\

5. WHETHER. Respondent, Superior Court Judge Olubunmi Olaide Awoniyi
Abused her Discretion and violated Petitioner’s Right To A Fair and Just Trial/
RIGHT TO DUE PROCESS, after Petitioner Carina Conerly pleaded to her for
the Recusal in order to disallow Petitioners’ case not to be heard, decided, ruled
upon, and handled by Winn and the Judge Olubunmi Olaide Awoniyi refused?
6. WHETHER. Respondent, Sharif Roldan Tarpin violated Rules of Civil Procedures
and Petitioners’ Right To A Fair and Just Trial/RIGHT TO DUE PROCESS by
agreeing and taking part in interfering into Petitioners’ Family Law case to rid,
distract, and stop Petitioners’ case from going forward and exercising their
RIGHT TO DUE PROCESS?
7. WHETHER, the Eastern District denied Petitioners’ Requests For Default against
Respondents, the denial violated Petitioners’ Right To A Fair and Just
Trial/RIGHT TO DUE PROCESS?
8. WHETHER. Superior Court Family Law Judge John Patrick Winn’s Court Order
Violated Petitioner Carina Conerly’s Constitutional First Amendment Right to
Video in a public place and if she did video, he stated and Ordered that she could
be guilty and liable for Civil and Legal Prosecution?
9. WHETHER. Superior Court Family Law Judge John Patrick Winn’s Court Order
Violated Petitioner Carina Conerly’s Constitutional 5th Amendment Rights to
remain silent when he made an Order telling her what to say and specific words to
say to Respondent Sharif Roldan Tarpin?

2

LIST OF PARTIES

[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
RELATED CASES
•

Case No. 20-17029, D.C. No. 2:19-cv-01021-KJM-KJN James Conerly, Carina Conerly,
Marilyn Tillman-Conerly, and M.T. v. Veracity Research Company, and Kristy Torain.

•

Case No. U.S. SUPREME COURT # 21M9. CALIFORNIA SUPREME COURT CASE # S
265069 Carina Conerly v. Sharif Roldan Tarpin.

•

Case No. 20-17118, D.C. No. 2:20-cv-01833-JAM-AC James Conerly, Carina Conerly, and
Marilyn Tillman-Conerly v. John Patrick Winn, Sharif Roldan Tarpin and Kiana R Turner.

•

Case D.C. No. 2:19-CV-02535-JAM-DB James Conerly, Carina Conerly, Marilyn TillmanConerly, and M.T. v. State of California, et al.

•

Case No. U.S. SUPREME COURT # pending. Case D.C. No. 2:21-cv-01132-ILN-CKD Carina
Conerly, and M.T. v. Julie G. Yap, Sharif R. Tarpin, Krystal Barlatt, Sacramento Superior
Court, and Forever Friends Early Learning Center LLC.

•

Case D.C. No. 2:21-cv-01076-TLN-JDP Carina Conerly, and M.T. v. David Coleman, Julie G.
Yap, Sharif Roldan Tarpin, John Patrick Winn, Sacramento Superior Court, and Kiana Turner.

3

TABLE OF CONTENTS
Pages
QUESTIONS PRESENTED

1-2

OPINIONS BELOW.

7

JURISDICTION.

8

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

8-9

STATEMENT OF THE CASE

9-21

REASONS FOR GRANTING THE WRIT

21-22

CONCLUSION.

22

INDEX TO APPENDICES

APPENDIX A

Decision of the Ninth Circuit District Court of California to Dismiss Appeal as
Frivolous

APPENDIX B

Order of the Ninth Circuit District Court of California for Appellants within 35
Days After the Date of this Order to File a Motion to Dismiss this Appeal or to
file a Statement Explaining Why the Appeal is Not Frivolous and Should Go
Forward

APPENDIX C

Order of the Ninth Circuit District Court of California on December 15,2020
that a Review of the District Court Docket Reflects that Appellant has Not
Paid the Docketing and Filling Fees for this Appeal

APPENDIX D

Order of the Ninth Circuit District Court of California On September 1,2020,
Court Issued an Order Staying Appellate Proceedings Pending Disposition of
the Motion for Reconsideration in the District Court.

APPENDIX E

Decision of the California Eastern District Court Dismissing Complaint with
Prejudice and Closing the Case

APPENDIX F

Ninth Circuit District Court of California Time Schedule Order filed

4

APPENDIX G

General Docket for the United States Court of Appeals for the Ninth Circuit

APPENDIX H

PACER Docket for California Eastern District Court

APPENDIX I

Superior Court of California, County of Sacramento Docket List created by
Carina Conerly CASE No. 19FL05538 William R. Ridgeway Family Relations
Courthouse

APPENDIX J

Plaintiffs’ Statement Why The Appeal Should Go Forward (Exhibit K is in
Appendix W)

APPENDIX K

Email Carina Conerly Sent to: familylawfl@Saccourt.ca.gov on 3/23/2021

APPENDIX L

Email Carina Conerly Received from: familylawfl@Saccourt.ca;gov on
3/23/2021

APPENDIX M

Email Carina Conerly Sent to: FCS@saccourt.ca.gov on 3/23/2021 and Email
Carina Conerly Received from: FCS@saccourt.ca.gov on 3/23/2021

APPENDIX P

Email Carina Conerly Received from: FLCopyRequest@saccourt.ca.gov on
4/23/2021

APPENDIX Q
APPENDIX R

Public Case Access System Family Law Case Details on 5/26/2021
Confidentiality of Cases Filed Under the Uniform Parentage Act

APPENDIX S

Step 1: Getting Started

APPENDIX U

2021 California Rules of Court Riile 8.45

APPENDIX V

Family Codes 7643, and 7570 through 7581

5

TABLE OF AUTHORITIES CITED

STATUTES AND RULES
•

14th Amendment Rights guaranteed under our United States Constitution

•

1964 Civil Rights violated by Government Conspiracy/Systemic Racism

•

1st Amendment Rights guaranteed under our United States Constitution.

•

5th Amendment Rights guaranteed under our United States Constitution.

•

14th Amendment Rights guaranteed under our United States Constitution.

•

Title VII, 1964 Civil Rights Act of Race, Religion, and Handicap; 42 United States
Employment Code Section 2000e; Civil Rights Act 1983.

•

Title 28, USC Section 636(c)(l and 2).

•

42 United States Code Section 2000e-5(f). Court to Appoint an Attorney. [Appellant’s
Father Paid Filing Fees].

•

Magistrate Judge’s (KJN) Findings and Recommendations; Associated Order.

•

Code of Civil Procedure Rule 55(b) [Default Judgment].

•

Federal Rule of Appellate Procedure 4(a)(4) [Pending in District Court]. [Ineffective
Appeal].

•

Federal Rule of Civil Procedure 59(e). [Reconsideration].

6

OPINIONS BELOW

[X] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A .B,C. D
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ x] is unpublished.

The opinion of the United States district court appears at Appendix _D
To the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
PC ] is unpublished.

[ ] For cases from state courts:
The opinion of the highest state, California Supreme Court to review the merits appears at
Appendix____to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the Court of Appeal of the State of California, in and for The Third
Appellate District to review the merits, appears at Appendix _____ to the petition and is
[ ] reported at________________________________________ ; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

7

JURISDICTION

[X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was February 12,2021.
[ ] No petition for rehearing was timely filed in my case.
Dfl A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: February 12,2021, and a copy of the
order denying rehearing appears at Appendix A
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
to and including _
(date) on
in Application No.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix______.
[ ] A timely petition for rehearing was thereafter denied on the following date:
________________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) on
(date) in pp
Application No.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
14th Amendment of the United States of America Constitution
9th Amendment of the United States of America Constitution
5th Amendment of the United States of America Constitution
8

4th Amendment of the United States of America Constitution
. 181 Amendment of the United States of America Constitution

STATEMENT OF THE CASE

•

Plaintiffs filed this complaint in the Eastern District Court almost a year ago (February 18,
2020). Plaintiffs could not afford filing fees and when Plaintiff Carina Conerly’s became
aware that she did not have the money to pay for processing this complaint, he paid for her
filing fees of $400.00.

•

Plaintiff moved Eastern District Court of Sacramento California to waive fees for her Due
Process proceedings in Court, to include, for her to seek Court Appointed Counsel for her
and her daughter or she be appointed to represent her daughter. The District Court
Denied Counsel Representation for the both and/or for her to Represent her daughter M.T.
(who is M.T., Plaintiff #2 within this Case). Plaintiff Carina Conerly Properly had all
Defendants Personally Served with the Summons and Complaint; each Summons stated to
Defendants, the time for them to Answer the Complaint. All Defendants to Answer
according to the requirement that is stated on the face of the Court approved Summons.
Due to Defendants failure to answer as was required, Plaintiffs moved the District Court to
issue a Default Judgment in Plaintiffs’ favor. District Court’s Magistrate Kendall J.
Newman Declined to issue the default on any Defendant. Prior to Judge K.J.N.’s being
declined, Plaintiff Carina Conerly had Declined to Jurisdiction of The United States
Magistrate Judge Kendall J. Newman as a right. Plaintiff Carina Conerly had also
previously been Denied by Kendall J. Newman a right to have a Court appointed Counsel.
District Court continued to Deny Plaintiff Motions for Reconsiderations of Appointing
9

Counsel. Moreover, District Court continued to Deny further deny new requests for
Default Judgments against any and all Defendants.
• Plaintiff believes that Chief District Court Judge Kimberly Muller did not review this case
De Novo, she merely adopted Magistrate Judge Kendall J. Newman’s findings and
recommendation. The Chief Judge incorrectly refers to Plaintiff Carina Conerly as a
Male. Furthermore, Chief Judge Muller inserted within her decision the statement “A
party filing a motion for reconsideration should not ask the court ‘to rethink what the
Court has already thought through’ simply because of disagreement with the result of
thought process.”

On October 16,2019 Sharif Tarpin filed a Request for Order and a Petition to Establish
Parental Relationship in which he did not request Child Support. However, The Petition
to Establish Parental Relationship on page 2 states the following: The court may make
orders for support of the children and issue an earnings assignment without further notice
to either party.
On November 5,2019 Carina Conerly Filed a Request for Domestic Violence
Restraining Order against Sharif Tarpin requesting Child Support and providing the
needed FL-155, Financial Statement (Simplified).
On November 6,2019 the William R. Ridgeway Family Relations Courthouse filed DV110 Temporary Restraining Order, granting restraining order for Carina Conerly and
M.T. but in section 13 Child Support: Not Ordered now but may be ordered after a
noticed hearing.

10

On November 12, 2019 Sharif Tarpin was served by the Sheriffs Civil Bureau the
Domestic Violence Restraining Order Paperwork and the Temporary Restraining Order.
On November 13,2019 Carina Conerly went and picked-up from the Sheriffs Civil
Bureau, the paperwork for the Request for Order and a Petition to Establish Parental
Relationship that Sharif Tarpin filed.
On November 25,2019 the Domestic Violence Restraining Order Case was heard by
Joginder Dhillon who told Carina Conerly that the Child Custody and Child Support
would be addressed during Mediation scheduled for November 26,2019. He also ruled
that the Court finds that there is not sufficient evidence to support the granting of the
Domestic Violence Restraining Order, refusing to view harassing text messages sent to
Carina Conerly from Sharif Tarpin, witnesses of Sharif Tarpin’s drug abuse and
destructive character, Sharif Tarpin’s numerous traffic tickets and Sharif Tarpin’s
Misdemeanor Case, and vacated the orders of the temporary restraining order that was
granted on November 6,2019. William R. Ridgeway Family Relations Courthouse did
not have a Court Reporter at the Domestic Violence Hearing.
On November 26,2019 Mediation took place but would not address Child Support.
Carina Conerly was told the focus of Mediation was on Child Custody by the Mediator
Nora Williams. Nora Williams also refused to see nor take into account any evidence
Carina Conerly had against Sharif Tarpin including his Felony that Sharif Tarpin pled No
Contest to, was reduced to a Misdemeanor, and then completely dismissed by the State of
California, involving Sharif Tarpin carrying a concealed 40 Caliber dock within his
vehicle without a Concealed Weapons License or Permit. Carina Conerly was then
11

scheduled for a Custody Hearing on December 17,2019 at 9:00AM. On Carina Conerly’s
Responsive Declaration to Request for Order filed on December 12, 2019, Carina
Conerly again requested Child Support.
On December 12,2019 Carina Conerly filed her Order on Court Fee Waiver for the
Superior Court at William R. Ridgeway Family Relations Courthouse.
On December 17,2019 the Child Custody case was heard by Lauri Damrell who
provided Custody Orders and Visitation Orders and adopted the Mediator’s
recommendations granting all of Sharif Tarpin’s requests. Lauri Damrell did not address
Child Support Orders even after Carina Conerly requested. No Court Reporter was
present. Instead, the case was set for Trial on February 14,2020 at 8:30AM.
On December 17,2019 the United States District Court Eastern District of California
issued a Summons in a Civil Case on Case Number: 2:19-cv-02535-JAM-DB that lists
Sharif Roldan Tarpin, Superior Court of California County of Sacramento, Joginder
Dhillon, Lauri Damrell, Nora Williams, numerous California State Agencies, California
Employees, and affiliates of the State of California as Defendants and Carina Conerly as
one of the Plaintiffs.
On December 19,2019 Nora Williams, June D. Coleman, Lauri Damrell, Joginder
Dhillon, and Superior Court of California County of Sacramento was served the
Summons in a Civil Case and Complaint for Case Number: 2:19-cv-02535-JAM-DB at
the Office of the Attorney General for California.
On December 20,2019 Sharif Roldan Tarpin was served the Summons in a Civil Case
and Complaint for Case Number: 2:19-cv-02535-JAM-DB at his Western Dental job.
12

On December 24,2019 Carina Conerly received from the State of California Health and
Human Services Agency, Child Support Representative, Melody Bayless that Sharif
Tarpin has asked them to Open/Reopen a child support case for M.T. and to return the
FL-155 form to them. However, Sharif Tarpin has never requested Child Support. Carina
Conerly had already provided the FL-155 on this case with the Domestic Violence
paperwork on November 5, 2019.
On December 27,2019 Nora Williams, June D. Coleman, Lauri Damrell, Joginder
Dhillon, and Superior Court of California County of Sacramento was served a second
time the Summons in a Civil Case and Complaint for Case Number: 2:19-cv-02535JAM-DB at the Judicial Council of California.
On January 14,2020 Carina Conerly called both Phillip Veres at (916) 875-7328 and
Melody Bay less at (916) 876-1224 and left voicemail messages that she had already
requested Child Support and provided the FL-155 on Case Number 19FL05538.
On January 16,2020 Carina Conerly received a Notice Regarding Payment of Support
from Melody Bayless, stating that the local child support agency, Sacramento, is the
substituted payee for the current child support, child support arrears, and medical support
on Case Number: 19FL05538.
On January 23,2020 Carina Conerly received a Proof of Service for the Notice
Regarding Payment of Support-Substitution of Payee from Sacramento County
Department of Child Support Services.

13

On January 29, 2020 Carina Conerly filed a Request for Recusal at the Superior Court of
California County of Sacramento with Deputy Clerk, C. Brown, and Joginder Dhillon
Present telling Deputy Clerk, C. Brown, to file and endorse the Request for Recusal.
On February 14,2020 Bunmi Awoniyi denied the recusal and assigned the trial to
Department 120, Judge John P. Winn.
On February 14,2020 the Custody Trial was heard by John P. Winn, in which again
Carina Conerly asked for Child Support Orders and no Child Support Orders were given.
Carina Conerly also provided 298 pages of evidence including Exhibits A through
MMMM, several videos of Sharif Tarpin’s conduct, and three witnesses. On Exhibit A
was the Request for Recusal filed in the Superior Court of California County of
Sacramento on January 29, 2020 with Joginder Dhillon present at the filing counter with
the Deputy Clerk C. Brown who endorsed the filing. On Exhibit B was the United States
District Court Eastern District of California Summons in a Civil Case on Case Number:
2:19-cv-02535-JAM-DB that lists Sharif Roldan Tarpin, Superior Court of California
County of Sacramento, Joginder Dhillon, Lauri Damrell, Nora Williams, numerous
California State Agencies, California Employees, and affiliates of the State of California
as Defendants and Carina Conerly as one of the Plaintiffs. On Exhibit MMMM was the
United States District Court Eastern District of California Clerks Certificate of Entry of
Default for Sharif Roldan Tarpin on Case Number: 2:19-cv-02535-JAM-DB. John P.
Winn gave a parenting plan for visitation and custody violating Carina Conerly’s
Constitutional Rights and favoring Sharif Tarpin’s requests. William R. Ridgeway
Family Relations Courthouse did not provide a Court Reporter for the Custody Trial.
14

On February 18,2020, Carina Conerly filed in Eastern District Federal Court of
California, along with their Complaint, a NOTICE/CrVTL RIGHTS ISSUES that
informed that Court about inside and outside of the Court wrongful adverse acts done
against Petitioners, and as a consequence, Petitioners sough that Court for Emergency
help (which then wrongful and criminal acts involved Africans who were Defending p
from the Eastern District Court, mainly because minor child M.T. at that was being
damaged Parties within another case that has been filed against them.
On February 18,2020 the United States District Court Eastern District of California
issued a Summons in a Civil Case for Case Number: 2:20-cv-00362-KJM-KJN that lists
Sharif Roldan Tarpin, Superior Court of California County of Sacramento, John Patrick
Winn, Uduak Inyang Oduok, and Olubunmi Olaide Awoniyi as Defendants in the case
and Carina Conerly as one of the Plaintiffs.
On February 18,2020 Sharif Roldan Tarpin was served the Summons in a Civil Case
and Complaint for Case Number:2:20-cv-00362-KJM-KJN at the court ordered Exchange
location of 1429 Broadway Sacramento, CA 95818.
On February 19,2020 Superior Court of California County of Sacramento, Olubunmi
Olaide Awoniyi, Uduak Inyang Oduok, and John Patrick Winn were served Summons in
a Civil Case and Complaint for Case Number:2:20-cv-00362-KJM-KJN at the Judicial
Council of California.
On March 17,2020 Sharif Tarpin filed Request for Order for an Ex-Parte Hearing and
no Child Support was requested by him.

15

On March 24,2020 Carina Conerly filed in the Gordon D. Schaber Sacramento County
Courthouse Drop Box her Responsive Declaration to Request for Order to Sharif Tarpin’s
Request for Order and a Notice of Appeal because the William R. Ridgeway Family
Relations Courthouse was closed due to the Coronavirus and a sign at the William R.
Ridgeway Family Relations Courthouse said to go the Gordon D. Schaber Sacramento
County Courthouse to file paperwork. However, Gordon D. Schaber Sacramento County
Courthouse returned Carina Conerly’s paperwork stating that it must be resubmitted to
William R. Ridgeway Family Relations Courthouse, which was closed at the time.
On March 30,2020 the Ex-Parte Hearing for Sharif Tarpin was cancelled due to
Coronavirus.
On March 30,2020 Carina Conerly filed a Notice of Appeal to the 3rd Appellate District
Court of Sacramento, California.
On May 5,2020 Carina Conerly received a Minute Order from John P. Winn at William
R. Ridgeway Family Relations Courthouse that the Ex-Parte Hearing was continued to
May 20,2020 at 1:30PM.
On May 11,2020 Carina Conerly called the Sacramento County Child Support
Department and informed them that she had not received any child support. Carina
Conerly was informed that they were awaiting the Child Support Orders from William R.
Ridgeway Family Relations Courthouse. Carina Conerly informed them that William R.
Ridgeway never issued any Child Support Orders although she has repeatedly requested
them and she wanted to know what will happen, the Sacramento County Child Support

16

Department said they had to hear back from William R. Ridgeway Family Relations
Courthouse to proceed.
On May 12,2020 Carina Conerly filed a Responsive Declaration to Request for Order
with William R. Ridgeway Family Relations Courthouse requesting again Child Support
Orders, requesting recusal of the judge, showing proof of Sharif Tarpin committing
Pequry, and including in her exhibits the United States District Court Eastern District of
California Summons in a Civil Case for Case Number:2:20-cv-00362-KJM-KJN that lists
Sharif Tarpin, Superior Court of California County of Sacramento, John Patrick Winn,
Uduak Inyang Oduok, and Olubunmi Olaide Awoniyi as Defendants in the case.
On May 13,2020 Carina Conerly filed a Request for Order including in her exhibits a
Notice of Appeal and the United States District Court Eastern District of California
Summons in a Civil Case for Case Number:2:20-cv-00362-KJM-KJN that lists Sharif
Tarpin, Superior Court of California County of Sacramento, John Patrick Winn, Uduak
Inyang Oduok, and Olubunmi Olaide Awoniyi as Defendants in the case.
On May 14,2020 James M. Mize heard the Ex-Parte Application for Emergency Orders
from Carina Conerly and it was denied. He told her to attend the Ex-Parte Hearing
scheduled for May 20, 2020 with John P. Winn.
On May 20,2020 the Ex-Parte Hearing was heard by John P. Winn and Carina Conerly
asked for Child Support Orders and again no Child Support was given by John P. Winn
and no explanation as to why. Judge John P. Winn also modified the parenting plan for
visitation and custody in favor of Sharif Tarpin. This time Carina Conerly requested that
a Court Reporter be present at the Ex-Parte Hearing. Instead, the case was again referred
17

to Family Court Services for Mediation and another hearing/trial was scheduled for
August 4, 2020 at 9:00AM.
On June 18,2020 Carina Conerly filed a Notice of Appeal and a Request for A Court
Stamped Copy of Plaintiff s/Appellants’ Notice of Appeal at William R. Ridgeway
Family Relations Courthouse.
On June 25,2020 Superior Court of California County of Sacramento served Carina
Conerly a Notice of Default for the June 18,2020 Notice of Appeal filed and stated to
submit a proper Notice of Appeal (parties are incorrect on the notice). It also stated that
the Notice of Appeal was in Default for failure to file the sum of $100 plus $775.
However, there was already a fee waiver on file dated December 12,2019 with the
William R. Ridgeway Family Relations Courthouse.
On June 30,2020 Carina Conerly filed a Notice of Appeal/Cross-Appeal for judgment
entered on February 14,2020. Another Court Fee Waiver was also filed at William R.
Ridgeway Family Relations Courthouse for Carina Conerly.
On July 10,2020 Carina Conerly filed her Parenting Plan Questionnaire including her
Notice of Appeal filed on June 30,2020 and the United States District Court Eastern
District of California Summons in a Civil Case for Case Number:2:20-cv-00362-KJMKJN that lists Sharif Tarpin, Superior Court of California County of Sacramento, John
Patrick Winn, Uduak Inyang Oduok, and Olubunmi Olaide Awoniyi as Defendants in the
case.
On July 13,2020 Carina Conerly filed a Request for Domestic Violence Restraining
Order for injuries on M.T. during her visitation time with Sharif Tarpin on July 11,2020.
18

On July 16,2020 the Domestic Violence case was heard by James M. Mize and
continued to August 25,2020. Sharif Tarpin did not attend the hearing although, he was
properly served.
On July 16,2020 Carina Conerly filed Appellant’s Notice Designating Record on
Appeal.
On July 28,2020 Carina Conerly attended a separate Zoom Mediation appointment with
Mediator Marisela Bermudez who ignored all of Carina Conerly’s evidence against
Sharif Tarpin and agreed with all of Sharif Tarpin’s requests.
On August 3,2020 Carina Conerly filed a Motion for Peremptory Challenge and Order
of Transfer with William R. Ridgeway Family Relations Courthouse.
On August 4,2020 Carina Conerly and Sharif Tarpin attended a Zoom Hearing with
John P. Winn who continued the custody hearing to August 26, 2020 combining it with
the Domestic Violence Hearing and vacating the August 25, 2020 hearing scheduled by
James M. Mize on July 16,2020.
On August 7,2020 John P. Winn denied the Peremptory Challenge.
On August 10,2020 Carina Conerly filed a Notice of Appeal.
On August 11,2020 Carina Conerly filed for a fee waiver.
On August 17, 2020 Carina Conerly’s fee waiver was granted.
On August 21,2020 the Third Appellate District Court of Appeal Dismissed the Appeal.

19

On August 25,2020 Carina Conerly filed her Appeal Reconsideration with the Third
Appellate District Court of Appeal.
On August 26,2020 Carina Conerly and Sharif Tarpin attended a Zoom Hearing with
John P. Winn who denied the recusal, denied the restraining order, and ordered another
parenting plan for custody and visitation that again violated Carina Conerly’s
Constitutional Rights.
On September 8,2020 the Third Appellate District Court of Appeal Denied the Request
for Reconsideration and Dismissed the Appeal filed on June 18 and Denied the Appeal
filed on June 30, 2020.
On October 19,2020 Petitioner Carina Conerly filed her Petition For review in the
California 3rd District Appellate Court.
On October 23,2020 Petitioner Carina Conerly filed a change of her phone number.
On November 24, 2020 the California Supreme Court Denied Appellant/Petitioner’s
Request for Review.
On January 08,2021 the Ninth Circuit Court Of Appeals Ordered that
Petitioner/Plaintiff “(1) file a motion to dismiss On this appeal, see Fed. R. App. P.(b),
OR (2) file a statement explaining why the appeal is not frivolous and should go
forward.”
On January 28,2021 Petitioner, Carina Conerly filed her “PLAINTIFFF’S
STATEMENT” why her appeal should go forward.

20

On July 17,2021 NOW COMES Petitioner to respectfully submit and file for the United
States Supreme Court to grant Petitioner’s PETITION FOR A WRIT OF
CERTIORARI.
REASONS FOR GRANTING THE PETITION
Under Article ni. Section H the United States Supreme Court establishes the
jurisdiction (legal ability to hear a case) cases involving points of Constitutional and, or,
Federal Law, such as the case at hand involves issues of Civil Rights Violation.
Furthermore, that jurisdiction of this Court takes in Cases concerning State Courts
violating well established laws governing Constitutional Right to Due Process
controversy concerning equal rights within the Courts, right to litigate, Federal Lower
Courts’ Judges and staff differential treatment of Black Americans, even joining with the
Non-Blacks in providing defense in favor of the Non-Black. This is done by such means
of unjustly granting Non-Black Americans Dismissals of Black Americans Cases;
unwarranted and wrongful jurisdictional rulings and orders that was done in the “best
interest” of Respondent Sharif Tarpin, rather than minor M.T. (e.g., allowed respondent
Sharif Tarpin to interrupt during hearings but the Judge would not let Petitioner finish her
testimony The Judge was leading answers and statement (e. g. lead by Judge Winn after
asking Respondent the question, court’s staff assisted Respondent Sharif Tarpin with
processing legal documents, Respondent Sharif personal stated the Judges and policemen
and policewomen were acting in his favor). These techniques are also very sophisticated,
well financially funded, well planned, and etcetera, by the local government (federal and
state). Unfortunately, SYSTEMIC RACISM is a proper representation of these acts of
21

the local government Judicial System upon Black American Petitioner Carina Conerly
trying to get redress of wrongful injuries and damages brought by others, with the
MAJOR ISSUE BEING THE VIOLATING DEFENDANTS’ APPELLANTS’/
PETIONERS’ TO JUSTICE AND EXERCISE OUR CONSTITUTIONAL DUE
PROCESS RIGHTS. Moreover, the covert tactics of hiring Africans into the Courts has
been and still is a method the local judicial system that is used to continue to avoid hiring
Black Americans. These covert and highly systemic techniques are but a few mentioned
because they are growing more and more and looking from outside of these systems
makes these acts not hard to discover, but victimized within, makes it hard to believe that
outsiders do not see the corruption.
CONCLUSION

Petitioners hereby respect the United States Supreme Court, Court’s Officers, Court’s Staff and
Others that are involved in handling of this case, the Petition for a Writ of Certiorari should be
granted.

Respectfully submitted,

Carina Conerly
Date:

August 23,2021

22

